CERTIFICATE OF
COMPLIANCE
I hereby certify that the accompanying Brief Of Amicus Curiae The
Charlotte Lozier Institute Supporting Petitioner in Box et al. v. Planned
Parenthood of Indiana and Northern Kentucky et al. (No. 20-1375) complies with
the word count limitations of Supreme Court Rule 33.1(h) in that it contains
5,447 words, based on the word-count function of Microsoft Word – Office 365,
including footnotes and excluding material not required to be counted under
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on May 3, 2021.

/s/ Gene C. Schaerr
Gene C. Schaerr

